 Department of Health and Human Services

                        OFFICE
    INSPECTOR GENERAL





THE EFFECTS OF HOSPITAL MERGERS

 ON THE AVAilABiliTY OF SERVICES


   A Case Study of Eight Hospital Mergers




                        tIlVJCES.




                                     Richard P. Kusserow
          4-

                'l1i

                                l.   INSPECTOR GENERAL
                        d3a
                                       FEBRUARY 1991
 Department of Health and Human Services

                   OFFICE
    INSPECTOR GENERAL





THE EFFECTS OF HOSPITAL MERGERS

 ON THE AVAILABILITY OF SERVICES


   A Case Study of Eight Hospital Mergers




               ~ S tIlVJCES.




         f ~l.                 . Richard P. Kusserow
                               INSPECTOR GENERAL
          4-
               'l1i~d3a
                                . OEI- 04- 91- 00500
                       EXECUTIVE SUMMARY

PURPOSE

This repon describes the effects on the availability of hospital services when hospitals merge.

This repon contains a case- by-case description of the eight mergers in the study sample.

A report entitled " The Effects of Hospita Mergers on the Availability of Services
(OEI- 04-90- 02400) was issued at the same time as this repon. That repon is a summary, based
on findings, of the hospital mergers in the study sample.


BACKGROUND

Changes in Medicare hospital reimbursement and other " belt-tightening " actions by pub ic and
private payers have forced hospitals to operate more effciently. Among the cost-cutting
measures considered by hospitals are resource-sharng arangements and consolidation. Some
hospitals conclude that merger is the best course to remain viable.

The U. S. Department of Justice (DOJ) and the Federal Trade Commission (FTC), however
maintain that mergers may, in some situations, reduce healthy competition. It is their
responsibility to protect consumers from anti-competitive actions which may result in higher
prices and restricted choices. The DOJ prepared the Federal Merger Guidelines (" Guidelines
in 1968. The DOJ uses the' Guidelines to determine which proposed mergers may violate
antitrust law. The FTC uses the Guidelines and other criteria for their merger analyses. The
Guidelines do not mention the hospital industr specifically, nor issues of access to care.

Some members of the hospital industry are deeply concerned about                          DOl's and FTC's increased
interest in and challenge to hospital mergers in the past few years. Recent antitrust suits have
caused a great deal of consternation in the industry and have complicated the decision-making
process for hospitals considering merger. On the other hand, figures from the American Hospital
Association indicate that 40 to 60 mergers (the term includes acquisitions) have occurred
annually in the past decade. The                      DOl      and FTC have brought fewer than 10 antitrust cases
against hospitals during that time.

In November 1989, Secretar Sullvan appointed a task force to examine hospital merger issues
and asked the Inspector General to conduct certain studies to suppon the work of the task force.
This repon assesses the effects of hospital mergers on the availability of hospital services. 

FINDINGS

This assessment of eight hospital mergers found that:

     In all cases, one or both of the merging hospitals suffered from declining occupancy,
     lagging revenues, and/or rising costs. The mergers addressed these problems; all of the
     remaining hospitals are reported to be stronger as a result of merger.

     None of these mergers drew community opposition , and none were challenged by antitrust
     enforcement agencies.

     Of the 16 merging hospitals , four closed (ceased to provide general acute care) after the
     merger.

     No negative effects on the availability of hospital services resulted from any of the
     mergers. In all eight merger cases, the availability of hospital services was maintained or
     improved.


RECOMMENDATIONS

This report contains no recommendations. However, the HHS Hospital Merger Task Force may
make recommendations based on these and other studies.
                  . . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .              ....................
                                                                                                       . .. .. .. .. .. .
                                                                                                                        . .. .. .. .. .. .. .. .. .. . . . . . . . . . . . . .




                      TABLE OF CONTENTS

EXECUTIVE SUMMARY

INTRODUCTION
                                                                                                         . . . . . . . . . . . . . . . . . . . . . 1





CASE STUDIES

       Ottumwa Regional Health Center

        Ottumwa, Iowa. . . .                                                                                                                . . . . . . . . . . . . . 4


       Newton Medical Center 

        Newton , Kansas                                                                                                             . . . . . . . . . . . . . . . . 6


       Mercy Hospitals and Health Services of Detroit

        Detroit, Michigan                                                                                                                . . . . . . . . . . . . . . 8


       Trinity Lutheran Hospital

        Kansas City, Missouri                                                                                                                    . . . . . . . . . . 11


       St. Francis Medical Center

        Grand Island, Nebraska                                                                                                                         . . . . . . . . 14


       Staten Island Hospital

        Staten Island, New York                                                                                                                        . . . . . . . . 16


       The Allentown Hospital - Lehigh Valley Hospital Center

        Allentown , Pennsylvania. . . .                                                                                                                          . . . . 18


       Methodist Hospital of Middle Tennessee

        Winchester, Tennessee. . . . . . . . .                                                                                                                            . 21


AGENCY COMMENTS .................................................. 23


ENDNOTES. . . . . .
                              INTRODUCTION

PURPOSE

This repon describes the effects on the availability of hospital services when hospitals merge.

The Secretary of the U. S. Depanment of Health and Human Services (HHS) requested this
inspection.

This repon contains a case- by-case description of the eight mergers in the study sample.

A report entitled " The Effects of Hospital Mergers on the Availability of Services
(OEI-04- 90- 02400) was also issued at the same time as this report. That report is a summary,
based on findings, of the hospital mergers in the study sample.


BACKGROUND

Observers of the health care industry note the dramatic changes in that industry in recent years
including an increase in the number of mergers. One independent surveyor has forecast that the
number of hosRitals in multi- hospital systems wil increase from about 2,400 in 1986 to over
  400 by 1995.


Changes in Medicare hospital reimbursement and other "belt-tightening " actions by public and
private payers have forced hospitals to operate more efficiently. Among the cost-cutting
measures considered by hospitals are resource-sharng arrangements and consolidation. Some
hospitals conclude that merger is the best course to remain viable.

The U. S. Department of Justice (DOJ) arid the Federal Trade Commission (FTC), however
maintain that mergers may, in some situations, reduce healthy competition. It is their
responsibility to protect consumers from anti-competitive actions which may result in higher
prices and restricted choices. The DOJ prepared the Federal Merger Guidelines (" Guidelines
in 1968. The DOJ uses the Guidelines to determine which proposed mergers may violate
antitrust law. The FTC uses the Guidelines and other criteria for their merger analyses. The
criteria in the Guidelines take into account the geographic market, the product market , the
market shares of each merging entity, the effects of competition on prices , imminent financial
failure, and effciencies to be gained through merger. The Guidelines do not mention the
hospital industr specifically, nor issues of access to care.

Some members of the hospital industry are deeply concerned about      DOl's and FTC's increased
interest in and challenges to hospital mergers in the past few years. Recent antitrust suits have
caused a great deal of consternation in the industry and have complicated the decision-making
process for hospitals considering merger. 2 On the other hand , figures from the American
Hospital Association indicate that 40 to 60 mergers (the term includes acquisitions) have
occurred annually in the past decade. The DOJ and FTC have brought fewer than 10 antitrust
cases against hospitals during that time.
In November 1989, Secretar Sullvan appointed a task force to examine hospital merger issues
and asked the Inspector General to conduct certain studies to suppon the work of the task force.
This repon assesses the effects of hospital mergers on the availability of hospital services.


SCOPE

The study examined eight cases of hospital merger that occurred during 1987.

For purposes of this study, the term   merger includes acquisition. A hospital  is defined as a
facility that provides general , shon- term acute medical and surgical inpatient services.


METHODOLOGY

In selecting the eight mergers for the case studies, we began with the American Hospital
Association s (AHA) list of 1987 mergers. The AHA list contained 20 mergers that met the study
criteria. From this list we identified:

         rural general acute care hospital mergers where both hospitals were located in the same
         county, and

         urban general acute care hospital mergers where both hospitals were located in the same
         Metropolitan Statistical Area (MSA).

We selected four mergers from each group.

We conducted on-site visits to each community in the eight case studies. The study team
obtained information from hospital administrators and staff, hospital board members, business
leaders, local physicians, other local health care providers, local public officials, concerned
citizens , State hospital associations, and State health planning agencies.

This study examined on the pre-merger versus the post-merger availability of hospital and
related health care services. To ascenain the effect of the merger on availability, the pre-merger
services offered by both merger panners were compared to the services stil offered by the
post-merger facility. If a service was deleted as a result of the merger, the study team ascenained
the availability of that service from another provider, and the distance to that provider.

We did not analyze the broader and more complex issue of access to care that would have
required examination of a number of factors beyond the scope of our review , such as: the
availability or adequacy of health insurance coverage; patient and physician preferences to use a
particular hospital; and the availability of related health care services in the area served by a
hospital.
RECOMMENDATIONS

This repon contains no recommendations. However, the HHS Hospital Merger Task Force may
make recommendations based on these and other studies.
                               CASE STUDIES

Thefollowing is a case- by-case description, based on discussions with respondents , of the eight
mergers in the study sample.

OttUnlwa Regional Health Center                                          St. Joseph Health and
Ottunlwa, fA                                                             Rehabilitation Center
                                                                                  Ottunlwa , fA

                                            merged into

                         OTTUMWA REGIONAL HEALTH CENTER
                                  OTTUMWA,

WHAT WERE THE HOSPITALS LIKE BEFORE AND AFTER THE MERGER?

Prior to the merger there were two hospitals approximately 1.5 miles apart serving approximately
25, 000 residents of Ottumwa, Iowa. They were Ottumwa Regional Health Center, the 183- bed
community hospital , and religiously-affliated St. Joseph Health and Rehabilitation Center (" St.
Joseph' ), with 82 beds. Both were general acute care 
   ospitals.

Many years prior to the merger the two hospitals had agreed that St. Joseph' s would focus on
substance abuse , while Ottumwa Regional Hospital would perform most of the obstetrcal
gynecological and pre-natal services. However, according to respondents, the hospitals were
beginning to compete with each other by duplicating many services.

A few years before the merger, Ottumwa Regional Hospital formed a venture capital company
called Ottumwa Regional Venture , Inc. , which served as a holding company for the hospital and
other for- profit enterprises. In 1987 , after lengthy negotiations, the owners of St. Joseph' , the
Sisters of Humility, sold the hospital to Ottumwa Regional Venture , Inc. Ottumwa Regional
Hospital and St. Joseph' s were merged to form Ottumwa Regional Health Center. St. Joseph'
was closed as an acute care hospital and became the site for an outpatient services center.
Ottumwa Regional Health Center now operates 237 acute care beds.


WHAT WERE THE PROBLEMS AND WHY DID THEY MERGE?

Most respondents said they realized that the community could not suppon two acute care
hospitals. The hospitals were being drained financially by competing with each other for
pa6ents and duplicating expensive equipment. Revenues were decreasing due to reduced
reimbursements , declining admissions , and shorter stays. Ottumwa Regional Health Center was
designated a Regional Referral Center, but was reportedly in danger of losing this designation if
its patient mix did not increase.
Respondents said they feared that if the decline continued, both hospitals would be forced to
close. The merger was a way to address these problems and improve the capital position of the
surviving hospital.


WAS THE MERGER CHALLENGED?

No one formally opposed the merger. During the negotiation period, a committee was
established with representation from the medical community as well as both hospitals to look at
the community s health care needs. All of St. Joseph' s personnel were offered jobs and were
able to retain their seniority. The physicians had admitting privileges at both hospitals. Several
physicians said they supported the merger because of the potential increases in effciency.

The FTC informally inquired into the merger, but did not challenge it.


DID THE MERGER AFFECT THE AVAILABILITY OF HOSPITAL SERVICES?

The availability of inpatient services was unaffected by the merger. Although St. Joseph' s closed
as an acute care hospital , the distance to Ottumwa Regional Health Center is approximately 1.5
miles and both are on the same bus route. After the closure of the emergency room at St.
Joseph' , it was reponed by one respondent that patients seeking emergency treatment had
slightly longer waits. No services were deleted as a result of the merger.

The availability of outpatient services has improved since the merger. An extracorporeal shock
wave lithotripter and a magnetic resonance imager have been purchased. A free-standing blood
bank has been added.



Ottumwa Regional Health Center continues to offer alcohol and chemical rehabilitation services
at the St. Joseph' s location. The building provided space to add services such as an adult
daycare center, respite care , mental health and psychological services, home health care and
hospice service.
Axtell Christian Hospital                                              Bethel Deacolless Hospital
Newtoll , KS                                                                         Newton , KS

                                              merged illto

                                 NEWTON MEDICAL CENTER
                                      NEWTON, KS

WHAT WERE THE HOSPITALS LIKE BEFORE AND AFTER THE MERGER?

Prior to the merger there were two competing general acute care hospitals in Newton , Kansas.
Bethel Deaconess Hospital (" Bethel" ) operated 90 beds, and Axtell Christian Hospital (" Axtell"
operated 32 beds approximately one mile away. Bethel offered a few more services than Axtell
but in general they provided similar primary health care services. They competed with each
other for Registered Nurse staff, physician referrals , patients, and the procurement of advanced
medical equipment.

Both hospitals were private, riot- for- profit institutions with religious affiliations: Bethel with the
Mennonite Church and Axtell with the United Church of Christ. Both hospitals served Medicare
and Medicaid patients and provided charty care to persons unable to pay. They were governed
by separate boards comprised of lay people and representatives from their respective churches.

The two hospitals served the residents of NewtOn (population 16 5(0) and Harvey County
(population 30, 000 to 32 000), which had a stable economy based on agriculture , farm
implement manufacturing, rail transponation , health care, and aircraft manufacturing in Wichita
25 miles away. The only other general acute care hospital in the area is Halstead Hospital in
Halstead, Kansas , a 190- bed hospital approximately 10 miles from Newton. Halstead Hospital , a
secondary and teniary level referral center for Western Kansas , is not considered a competitor
according to respondents.

The original merger plans were to consolidate the two parent hospitals into Newton Medical
Center but to keep both physical locations open until a new facility could be built which would
house the combined institutions. Six months into the merger it became apparent that this was not
economically feasible. The Axtell facility was closed.

Newton Medical Center, which is not religiously affiliated, is now housed in the location which
was formerly Bethel. Newton Medical Center is a 72- bed hospital owned by Newton Healthcare
Corporation , a private, not- for- profit corporation. Newton Healthcare Corporation also owns
Harvey County Home Health and two for- profit corporations , and maintains its offices in
Newton Medical Center. The majority of the patients who had been served by Axtell and most
of the Axtell physicians moved to the Bethel location. A Board of Directors comprised of 19 lay
people governs the hospital.
WHAT WERE THE PROBLEMS AND WHY DID THEY MERGE?

A merger between the two hospitals had been discussed and analyzed for some years prior to
1987. Since the early 1980' s the community and the two hospitals knew that they were
overbedded and that competing with each other was creating costly duplications of services and
equipment. In 1981 a committee was formed to discuss merging. At that time the resistance was
too great , the idea was tabled, and the committee inactivated.

Around 1985 both hospitals were suffering from decreasing occupancy, shorter stays per patient
and a general downward trend financially. Other problems were a shonage of Registered Nurses
and some diffculty in finding specialists. At that time the merger committee was reactivated
and the merger was planned. The merger was officially accomplished on July 17 , 1987 , and
operationally effective on January 1 ,   1988.

Most of the pre-merger problems were addressed by the merger, although there is stil a shortage
of Registered Nurses. Competition for Registered Nurses is fierce , particularly due to Newton
proximity to Wichita where higher pay is offered.


WAS THE MERGER CHALLENGED?

The promise of a new hospital at a new location made the merger and the subsequent closure of
Axtell more palatable. Despite the promise there was some resistance to the merger, particularly
on the pan of physicians who had practiced at Axtell. Some sense of loss was felt by the
community, but no serious resistance came from any comer of the community. The community
continues to be supportive of Newton Medical Center.

The other problem was a statutory prohibition to licensing two physical facilities under one
license. The Kansas State Legislature passed enabling legislation which eliminated this obstacle.
No antitrst enforcement agency challenged the merger.


DID THE MERGER AFFECT THE AVAILABILITY OF HOSPITAL SERVICES?

The availability of services has not been affected adversely by the merger. No pre-merger
services were deleted. Availability has been improved by adding health promotion services , an
in- house computed tomographic (CT) scanner, and by upgrading the nursery from a Level I
(well baby) to a Level II (intermediate care) facility.

Medicare and Medicaid patients continue to be served, and no policy or procedural changes have
occurred regarding care for charty cases. Patients who formerly went to Axtell and who lived
near Axtell have to travel approximately 1 mile further to Newton Medical Center.
Samaritan Health Center                                         Mount Carmel Mercy Hospital
Detroit, MI                                                                           Detroit, M I


                                             merged into

              MERCY HOSPITALS AND HEALTH SERVICES OF DETROIT

                                DETROIT, MI


WHAT WERE THE HOSPITALS LIKE BEFORE AND AFTER THE MERGER?

Prior to the merger there were two hospitals in Detroit, Michigan which were divisions of the
Sisters of Mercy Health Corporation. They were 451- bed Mt. Carmel Mercy Hospital (" Mt. .
Carmel" ) in Nonhwest Detroit, and 236- bed Samartan Health Center (" Samaritan ) in East
Detroit. Both hospitals served the inner city residents of Detroit , a predominantly lower
socio-economic , black population.

Mt. Carel provided    tertiary level care and Samartan provided secondar level care. Both
hospitals were led by a governing board comprised of lay, religious , and medical people. Both
had its own CEO and a full complement of managerial staff.

Sisters of Mercy Health Corporation , a not- for- profit subsidiary corporation of Mercy Health
Services , owns 23 hospitals and six outpatient clinics. Mercy Health Services is a not- for- profit
Michigan corporation sponsored by the Sisters of Mercy of the Province of Detroit who are
dedicated to providing health care to people in need, giving priority to those who are
economically disadvantaged. The other subsidiares of Mercy Health Services are a home health
care agency, an alternative financing system , 20 retirement living and long- term care facilities , a
foundation for fund development , an information systems division and an insurance company.

The two Detroit hospitals and the six outpatient clinics merged management and governance
structures on August 1 , 1987, to become , Mercy Hospitals and Health Services of Detroit. The
hospitals maintained their own physical plants and their respective names.


WHAT WERE THE PROBLEMS AND WHY DID THEY MERGE?

In 1987 the MSA of Detroit , with a population of approxi!lately 5 million , was recovering
somewhat from the economic slump in the automobile industr. The inner city, with a
population of around 1 millon , was experiencing an ongoing decline. Middle income people
continued to migrate to the suburbs and the remaining population was plagued by rising
unemployment , a high infant mortality rate, and increasing drug and education problems.

As the population served by both hospitals became increasingly indigent , and as paying patients
became fewer and fewer, these two facilities created an ever- increasing drain on the total system.
In addition to the demographic changes and their accompanying impact on patient mix , all
hospitals in the tri-county area of Detroit were faced with high liability insurance premiums.
The cost of liability insurance in Detroit is estimated to be six to seven times the national
average , and is among the highest in the nation.
Samaritan s situation was exacerbated by its loss of patients and physicians in the 9 years prior to
this merger. In 1978 Samartan , known then as St. Joseph Mercy Hospital , and Evangelical
Deaconess Hospital merged at the management level, but maintained their own physical plants.
In 1983 St. Joseph Mercy Hospital moved to the old Detroit Receiving Hospital , losing patients
and physicians in the aftermath. In 1984 both St. Joseph Mercy Hospital and Evangelical
Deaconess moved into the present physical facility and became Samaritan Health Center. Again
patients and physicians' were lost. By 1987 Samartan had lost all of its specialists except for one
orthopedic surgeon.



By 1987 Mt. Carmel and Samartan , but more so Samartan with its larger indigent care base, had
become constant financial drains on the system. Together they accounted for millions of dollars
in losses each year. Corporate manageme t decided to merge the two management teams
operational functions and governing boards. These changes would reduce both capital and
operating costs; eliminate duplication and redundancy; iricrease market share; and expand and
improve the ambulatory and primar care delivery system network. The combined hospitals
would be more competitive in the Health Maintenance Organization (HMO) market. The stated
thrust of the merger was to increase the number of patients belonging to HMO' s and Preferred
Provider Organizations, by offering a city-wide distrbution of ambulatory and inpatient
facilities. All of these improvements , ultimately, were geared towards reducing the financial
drain on the corporate parent.


WAS THE MERGER CHALLENGED?

As far as the general public was concerned , nothing had changed, and they offered no resistance
or opposition. According to most respondents there were negative reactions from within the two
hospitals , panicularly on the part of the physicians. As staff were terminated, anxiety over job
security and the presence of new administrators and managers rose. The sense of separateness
between the two medical staffs was heightened. No antitrust enforcement agency challenged the
merger.


DID THE MERGER AFFECT THE AVAILABILITY OF HOSPITAL SERVICES?

The availability of services was unaffected by the merger. No changes were made in the medical
services offered, and no intermingling of medical staffs occurred. Some respondents felt
however, that due to cutbacks in personnel , the level and possibly the quality of some services
suffered. No services were deleted at that time. In late 1989 the pediatric inpatient unit at
Samaritan closed due to low census. Samaritan s women s center also closed some time after the
merger, but not for reasons associated with the merger.

The merger somewhat alleviated the financial drain the two hospitals were creating; however, the
drain continued. In fiscal year 1989 the two facilities accounted for a combined loss of around
$28 million. In July of 1990   the 1987 merger of the management strctures   of these   two facilities
was nullfied.
As of July 1 ,   1990 , Mt. Carel Mercy Hospital , although stil a pan of the Sisters of Mercy
Health Corporation , was placed under the management of the Detroit Medical Center. Detroit
Medical Center owns Grace Hospital and six other hospitals. Under the letter of intent which
created the new management agreement , Detroit Medical Center wil renovate Mt. Carmel to
accommodate cenain services such as obstetrics. The medical staffs and employee groups of Mt.
Carmel and Grace Hospital wil be consolidated into one organization to be housed at the Mt.
Carmel location. Detroit Medical Center wil assume ownership of Mt. Carmel on April 1 , 1991. .

As of July 1 ,   1990, the Sisters of Mercy Health Corporation entered into a joint venture
agreement with Henry Ford Health Systems regarding Samartan Health Center. Per the
agreement, Henry Ford Health Systems wil manage Samartan under a five- year management
contract, as well as provide " significant financial support" to Mercy H,ealth Services. Henry
Ford Health Systems ' physicians will work with Samartan s medical staff to provide care to the
patients at the hospital and its six outpatient centers known as Mercy Family Care Centers. The
president of the Sisters of Mercy Health Corporation said of the venture: " The involvement of
Ford physicians wil allow us to expand the services we currently offer and reach an even larger
part of the underserved populations, which is consistent with the missions of the Religious
Sisters of Mercy and Henry Ford Health Systems ' Urban Health Initiative.
Trinity Lutheran Hospital                                                  St. Mary s HO!lpital

Kansas City, MO                                                              Kansas City, MO


                                           merged into

                              TRINITY LUTHERAN HOSPITAL

                                    KANSAS CITY, MO


WHAT WERE THE HOSPITALS LIKE BEFORE AND AFTER THE MERGER?

Prior to the merger there were two general acute care hospitals within 1 block of each other in
Kansas City, Missouri: 253- bed Trinity Lutheran Hospital and 198- bed St. Mary s Hospital (" St. .
Mary ). Trinity Lutheran Hospital provided mostly teniar level care, and St. Mary s provided
mostly general , primary level , family- practice services. They both served the area of Kansas
City called " midtown.

Trinity Lutheran Hospital was owned by Trinity Health Systems, Inc., a not- for- profit
corporation housed in Trinity Lutheran Hospital , and was run by a governing board comprised of
community leaders and physicians. St. Mary s was owned and operated by the SSM Healthcare
in St. Louis, Missouri. The SSM Healthcare is a not- for- profit Missouri corporation sponsored
by the Franciscan Sisters of Mar, and is guided by a lay advisory board. The pre-merger
occupancy rate at Trinity Lutheran Hospital was 47 percent , with an average daily census of 119.
The occupancy rate at St. Mary s was 45 percent, with an average daily census of 90.

 The primary industries in Kansas City are marketing and shipping agrcultural goods;
 manufacturing machinery, transportation equipment, steel , and chemicals; oil refining;
 automobile assembling; and printing and publishing. The MSA of Kansas City has a population
-of one and one half milion. The population of Kansas City, Missouri alone is approximately
 450 000.

The metropolitan area of Kansas City was growing economically. Midtown was comprised
mainly of lower income , caucasian elderly subsisting on Social Security benefits, and a small
Hispanic population. At one time the area was populated by middle income families, most of
whom had migrated to the suburbs. Large hotel/convention complexes are being developed in
and near midtown. The area is now beginning to attract middle income residents who are
purchasing and renovating old homes.

The merger process began between the two hospitals in mid- 1987. Final legal documents were
signed on February 16 1988. Shortly after Trinity Health Systems, Inc. acquired St. Mary s from
SSM Healthcare, St. Mary s was closed as a general acute care hospital and became the site for
the psychiatric and alcohol/chemical dependency services of Trinity Lutheran Hospital.

Trinity Lutheran Hospital is run by a governing board comprised of approximately 26 people
two of whom are previous board members from St. Mary s. The occupancy rate at Trinity
Lutheran Hospital is now 63 percent , with an average daily census of 171.
                                                 , "





WHAT WERE THE PROBLEMS AND WHY DID THEY MERGE?

The primary reason for the merger was the failing financial condition of St. Mary s, and the
desire of SSM Healthcare to divest itself of that facility, which was draining the entire system.
Trinity Lutheran Hospital wanted to increase its market share by acquiring the physicians and
patients from St. Mary s; Trinity feared that a competitor might purchase the facility if it did not.
According to respondents , if St. Mary s had not been acquired by Trinity Health Systems , Inc. or
some other health care organization , SSM Healthcare wo.uld eventually have closed the hospital
and sold the real estate.

Many of St. Mar s financial problems have been attrbuted to the changing demographics of the
area. The migration of families out of the area had a panicularly negative impact on
family- practice-oriented St. Mary s. The aging population which remained in the area could not
support the facility adequately, panicularly the obstetrcal and gynecological services. Trinity
Lutheran Hospital , on the other hand , offered a higher level of acute care services and was not
affected as much as St. Mary s by these demographic shifts. Both hospitals were experiencing
declining census and were duplicating some services. St. Mary s also was losing physicians due
to aging of the staff and some migration to the suburbs.

The entire Kansas City area was overbedded , according to respondents. Five blocks from Trinity
Lutheran Hospital and St. Mar s Hospita was Truman Medical Center, the city s 271- bed
community hospital. Within a 2 to 5-mile radius were St. Luke s Hospital , Menorah Medical
Center, Research Medical Center, Baptist Medical Center, St. Joseph' s Hospital , Bethany
Medical Center, and the University of Kansas Hospital.



WAS THE MERGER CHALLENGED?

There were no obstacles to the merger, although a small group of Catholics who supponed St.
Mary s felt a certain sense of loss and elected to go to another Catholic hospital rather than use
Trinity Lutheran Hospital. The majority of the St. Mary s patients and physicians did move to
Trinity Lutheran Hospital. Efforts were made to absorb the non-medical staff into Trinity
Lutheran Hospital; those employees who could not be accommodated at Trinity Lutheran
Hospital were provided severance pay. No antitrust enforcement agency challenged the merger.


DID THE MERGER AFFECT THE AVAILABILITY OF HOSPITAL SERVICES?

The availability of hospital services was unaffected by the merger. All pre-merger services
continued, with the exception of obstetrcal services. Trinity Lutheran Hospital in Kansas City,
Missouri elected not to offer obstetrcal services after the merger with St. Mary s Hospital.
Trinity Lutheran had not offered obstetrical services for at least a decade prior to the merger
because of local demographic changes and the fact that hospitals nearby still offered obstetrcal
care.

The area surrounding Trinity Lutheran Hospital midtown " had changed from young, middle
class families to a predominantly elderly population living mainly on Social Security benefits.
Statistics from the AHA on the number of binhs and bassinets in the hospitals serving the area of
 midtown " indicate that births and bassinets at St. Mar s had steadily declined in the three years
preceding the merger. The Medicare utilzation rate at Trinity Lutheran Hospital increased by
160 percent from 1986 to 1989, clearly demonstrating an increase in the volume of elderly patients.


Trinity Lutheran Hospital and St. Mar s served the indigent before the merger and Trinity
Lutheran Hospital continues to do so. There were no changes made in policies at Trinity
Lutheran Hospital regarding charty care. The amount of uncompensated care provided by
Trinity Lutheran Hospital doubled after the merger, and the hospital's Medicaid utilization
increased by 472 percent from 1986 to 1989. These figures imply that Trinity s services were
available to and used by the former patients of St. Mar s. Further, respondents believe that the
merger improved the quality of care at Trinity Lutheran by increasing the volume and frequency
of specialized procedures.

There is a perception that a " domino effect " was avened by the acquisition of St. Mary s. If it
had closed outrght , according to some respondents, the closure would have created a fear on the
part of the physicians and the community that Trinity Lutheran Hospital was next. This could
have caused a flght from Trinity Lutheran Hospital , creating a self- fulfilling prophecy.

In February of 1990 , Trinity Lutheran Hospital entered into another merger, this time with
Research Medical Center, a 100- bed general acute care hospital about 5 miles from Trinity
Lutheran Hospital. The merger involves sharing administrative services and creating efficiencies
by sharing personnel to accommodate the peaks and valleys of activity at each hospital. The
arrangement prevents the loss of personnel who require full-time employment and saves the
hospitals from paying expensive overtime rates.
St. Francis Medical Center                                   Grand Island Memorial Hospital
Grand Island, NE                                                          Grand Island, NE

                                            merged into

                              ST. FRANCIS MEDICAL CENTER
                                    GRAND ISLAND , NE

'''HAT WERE THE HOSPITALS LIKE BEFORE AND AFTER THE MERGER?

Prior to merger Grand Island, Nebraska, a community of' about 40, 000, had three hospitals:
Veterans Administration Medical Center (162 beds); Grand Island Memorial Hospital (1l4 beds);
and St. Francis Medical Center (131 beds). Grand Island Memorial Hospital and St. Francis
Medical Center were located only 3 blocks apan. Both were general acute care facilities,
offering approximately the same mix of services , and competing for referrals.

The administrations and boards of the two hospitals negotiated a merger. The Sisters of Charity
Health Care System , the parent corporation of St. Francis Medical Center, offered to acquire
Grand Island Memorial Hospital. Lutheran Hospitals and Homes Society of America , parent of
Grand Island Memorial Hospital , accepted the offer in April of 1987. The merger agreement
included a plan to close one of the two facilities as a general acute care hospital. Following a
review and analysis by a consultant , the merged hospital board opted to close the Grand Island
Memorial Hospital facility.

St. Francis Medical Center now has 139 acute care beds. The former Grand Island Memorial
Hospital building is used for expanded outpatient services and for a new skiled nursing facility.


WHAT WERE THE PROBLEMS AND WHY DID THEY MERGE?

Admissions were declining at both hospitals. Occupancy rates were around 50 percent. Grand
Island Memorial Hospital was losing money and incurrng debts. Respondents said Grand Island
Memorial Hospital would have inevitably closed. St. Francis Medical Center was faced with the
threat of losing its Rural Referral Center designation if admissions continued to decline.
Competition between the hospitals was financially draining and damaging the community
perception of both. Both administrations agreed   that they were in a deteriorating situation.


"VAS THE MERGER CHALLENGED?

No objections to the merger were raised. All staff at the Grand Island Memorial Hospital were
offered jobs at the new hospital and counselors were available to help ease any stress caused by
the changes. Prior to the merger most of the physicians had staff privileges at both facilities, and
had already begun holding combined staff meetings. To funher insure integration , three board
members from Grand Island Memorial Hospital were added to the governing board of the new
hospital. No antitrust enforcement agency challenged the merger.
DID THE MERGER AFFECT THE AVAILABILITY OF HOSPITAL SERVICES?

The availability of services has improved for the community. Respondents said the merger made
it possible to add and expand services. The Grand Island Memorial Hospital facility provided
needed space for services , without the capital expense of building new facilities. The building
now houses outpatient services such as: alcohol and drug rehabilitation services; eating disorders
treatment; lithotripsy; hemodialysis; radiation and chemotherapy treatment; and mammography.
The building also houses a new skiled nursing facility, offices and classrooms. St. Francis
Medical Center has added a cardiac catheterization laboratory and plans to add rehabilitation
serVIces.

Due to the new hospital's religious affiiations, elective tubal ligation services were deleted.
These services are available at a hospital 20 miles away.

Respondents say the financial strength of the hospital allows more charity care to be offered.
The hospital has recently begun to help build clinics in remote areas to increase access and to
insure referrals for inpatient care. The hospital administration estimates that approximately 35
percent of admissions now come from outside the county.
Staten Island Hospital                                          Richmond Memorial Hospital
Staten Island, NY                                                        and Health Center
                                                                          Staten Island, NY

                                            merged into

                                 STATEN ISLAND HOSPITAL
                                    STATEN ISLAND , NY

WHAT WERE THE HOSPITALS LIKE BEFORE AND AFTER THE MERGER?

Prior to the merger , Staten Island Hospital was a 470- bed teaching hospital on the north end of
the island. It offered many sophisticated inpatient procedures and clinical services. Although
the hospital was located in a middle- income area, many of the clinic patients were covered by
Medicaid or not at all. Richmond Memorial Hospital was a 172- bed community hospital located
on the south end of the island, 8 miles away. In addition .to basic medical/surgical services , it
offered outpatient psychiatric services and methadone treatment.

In 1987 the hospitals merged under a corporate umbrella , Community Health Systems of Staten
Island. For the first two years of the merger nothing changed in the operation of the two
facilities. In 1989 a new CEO encouraged further consolidation and a single Medicare provider
number was requested and granted. The medical staffs were integrated by June 1990.

The hospital has recently been renamed Staten Island University HospitaL The former Staten
Island Hospital site became University Hospital North , and the former Richmond Memorial
Hospital site became University Hospital South. Basic medical and surgical services at both
locations have remained the same , and new facilities and services have been created.


WHAT WERE THE PROBLEMS AND WHY DID THEY MERGE?

Richmond Memorial Hospital served a sparse population and the medical staff was dwindling.
Occupancy rates were low compared to other hospitals in New York. There was a cash flow
problem and malpractice insurance rates were increasing. Renovations completed in 1986 did
not upgrade the operating rooms , which limited the new services it could offer. According to
respondents , the hospital did not serve enough low- income patients to meet its Hill- Burton
obligations because of its location. 

Staten Island Hospital was a financially sound hospital due to strong investment returns.
However, it was overcrowded and unable to meet patient demands. Because of strict controls on
hospitals by the State of New York , the hospital was not permitted to expand. Some respondents
feared that the overcrowding would force the hospital to reduce services , especially clinics which
served primarily Medicaid and charity patients.

Richmond Memorial Hospital sought a merger to ease its financial problems. Most physicians at
Richmond Memorial Hospital already had admitting privileges at Staten Island Hospital and the
same union represented workers at both. After 18 months of planning and development , the
administrations and boards of the two hospitals agreed to become part of a holding company, the
Community Health System of Staten Island. The merger was designed to better integrate
services and improve service delivery; maximize resource utilization; eliminate duplication;
produce economies of scale; and recruit staff.


WAS THE MERGER CHALLENGED?

No formal opposition was presented to the merger. The merger had been planned to minimize
objections. Staten Island Hospital'sformer CEO became the CEO of the merged hospital , while
Richmond Memorial Hospital's former board chairman became chairman of the new board. All
board members were offered positions on the new hospital board or on the boards of subsidiaries
of the new corporation. All staff were guaranteed job security and the medical staffs were given
three years to consolidate.

The community raised no formal objections. A few people feared that the Richmond Memorial
site would be closed as a hospital and that the increased drg treatment services at that location
would bring addicts to their neighborhood. No antitrst enforcement agency challenged the
merger.


DID THE MERGER AFFECT THE AVAILABILITY OF HOSPITAL SERVICES?

The availability of services has not been diminished by the merger. Respondents believe that
availability has been improved by the addition of services. Several specialized services were
consolidated and expanded in the space available at the former Richmond Memorial Hospital.
These services included inpatient alcohol and drg treatment services, psychiatric inpatient
services, geriatrc services, and cenain surgeries. Although this has increased the distance that a
patient living in the north end of the island must travel by 8 miles, free van services are available
and bus and rail lines are convenient for most.

Recently, a $40 milion ambulatory center was built adjacent to the former Staten Island
Hospital. A new oncology center, a magnetic resonance imager , and an in-vitro fenilization
clinic are housed in the ambulatory center.
Allentown Hospital                                              Lehigh Valley Hospital Center
Allentown, PA                                                                    Allentown , PA

                                              merged into

        THE ALLENTOWN HOSPITAL- LEHIGH VALLEY HOSPITAL CENTER
                           ALLENTOWN, PA


WHAT WERE THE HOSPITALS LIKE BEFORE AND AFTER THE MERGER?

Prior to the merger there were three general acute care hospitals in Allentown. The two largest
of the three, Allentown Hospital and Sacred Heart Hospital , jointly built a teniary care facility in
the suburbs in 1974 , called Allentown Sacred Hean Hospital Center. By 1975 the joint venture
was in trouble, and several lawsuits ensued. By the end of the decade, Allentown was embroiled
in what was referred to locally as " the hospital wars. " The medical community, local religious
and political leaders, and the general public polarzed over the conflict.

In 1980 a judicial ruling " demerged" Allentown Sacred Heart Hospital Center. That ruling
required that Sacred Hean Hospital become an independent hospital again. Allentown Sacred
Heart Health Center was renamed Lehigh Valley Hospitai Center. Members of the Sacred Heart
Hospital board were replaced by newly-appointed members from the community. A holding
company, HealthEast , Inc. (" HealthEast ), was created to manage both Allentown Hospital and
Lehigh Valley Hospital Center. HealthEast has its own board comprised of community
representati ves.

During the 1980s both hospitals continued to add beds. By 1987     Allentown Hospital had 284
beds and Lehigh Valley Hospital Center had 462.  Except for emergency services , very few
medical services were duplicated between the two.

HealthEast also grew as a system. In addition to the two general acute care hospitals , it operated
a hospital in Lehighton , Pennsylvania, two nursing homes, two family care centers, an alcohol
and drg treatment center, a hospice and home care services. The company also oversaw a trust
fund which raised donations for the system and operated a for- profit subsidiary. Some ancilary
services once provided by each hospital, such as lab services, were consolidated into one service.

                                               1988) Allentown Hospital and Lehigh Valley
In 1987 (with a legal effective date of January 1 ,
Hospital Center merged, creating The Allentown Hospital - Lehigh Valley Hospital Center. The
merged hospital was comprised of two sites , operated under two licenses , and had two Medicare
provider numbers. The two boards were combined into one and one administration ran both
sites. The Allentown Hospital - Lehigh Valley Hospital Center operates 803 beds.
                                             ,"               " "                      , "





WHAT WERE THE PROBLEMS AND WHY DID THEY MERGE?

The administrations and the boards of both hospitals said that the merger was a " natural
progression " for the system. The merger was intended to make the operation of the two
hospitals more efficient. It reduced overhead costs by eliminating duplicative management
positions.

The Allentown Hospital - Lehigh Valley Hospital Center is the largest hospital in Pennsylvania.
Some board members and staff say it is now easier to recruit prominent administrators and
specialists. The capital position of the combined hospitals has improved. The merger also
allowed the sizable Pool Trust Fund, donated to the Lehigh Valley Hospital Center, to be used to
fund projects at The Allentown Hospital.


WAS THE MERGER CHALLENGED?

There have been no organized objections to the merger. Most of the community was unaware
that a merger had occurred. About 90 percent of the physicians at both sites had staff privileges
at both hospitals before the merger and even before the merger the two medical staffs were
holding combined meetings. No antitrust enforcement agency has challenged the merger.


DID THE MERGER AFFECT THE AVAILABILITY OF HOSPITAL SERVICES?

The merger had no affect on the availability of hospital services. For the patients at both sites
nothing has changed. Occupancy rates have remained stable. The mix of services offered at
each site has not changed. The Allentown Hospital , located in the western end of town
continues to provide the primar care , obstetrical and gynecological services, psychiatric
services, pediatrcs and clinics. The Lehigh Valley Hospital Center, in the suburbs west of town
is a secondary/tertiary care facility. It operates with state-of-the-art equipment and techniques,
and has developed a regional market for cenain specialties , such as open hean surgery.

The hospital has not merged again since 1987. However, in 1988 the Lehigh County Board of
Assessment Appeals revoked the tax exempt status of The Allentown Hospital - Lehigh Valley
Hospital Center. As a result of this revocation action , the Coun of Common Pleas of Lehigh
County, Pennsylvania ordered an accounting of the stewardship of the hospital. This audit was
initiated because the loss of the hospital's tax exempt status called into question its charitable
nature. The audit culminated in an Adjudication and Decree , issued in July of 1990 by Judge
Robert K. Young.

Judge Young stated in his Adjudication that There is nothing harmful in HealthEast wanting to
do well with its Hospitals , but its main purpose must be to provide quality health care at an
affordable price. " He went on to say, " The Trustees must remind the community that access to
proper health care is not only a basic human right , but that the lack of care to any significant
group of residents has a direct negative effect upon all of us. HealthEast " he said has
become too powerful and too controllng.
The Judge charged the Board of Trustees with addressing the prevailing perception that
HealthEast is misusing its power and with setting policies based upon health care needs of the
citizens of the area rather than " primarly for the purpose of gathering or holding onto patients,
or of enlarging the investment ponfolio. " Finally, Judge Young required that the hospital be
audited by the Court again within five years from the date of the Decree.
Methodist Hospital of                                            Emerald-Hodgson Hospital
Middle Tennessee                                                             Sewanee , TN
Winchester, TN

                                           merged into

                    METHODIST HOSPITAL OF MIDDLE TENNESSEE
                                WINCHESTER , TN

WHAT WERE THE HOSPITALS LIKE BEFORE AND AFTER THE MERGER?

Prior to the merger there were two general acute care hospitals in Franklin County, Tennessee.
Methodist Hospital of Middle. Tennessee in Winchester operated 103 beds, and , 13 miles a way,
Emerald- Hodgson Hospital in Sewanee operated 42 beds. Methodist Hospital of Middle
Tennessee served primarily the residents of Franklin County (population 31 (00), which was an
economically-stable rural county in middle Tennessee supponed mainly by agriculture and some
light manufacturing.

Methodist Hospital of Middle Tennessee was owned and operated by Methodist Health Systems
Inc. , a not- for-profit, multi- hospital corporation. Emerald- Hodgson Hospital was owned by the
University of the South , but was managed and operated by a series of not- for- profit hospital
management corporations, the last of which was Erlanger Health Systems, Inc.
Emerald- Hodgson Hospital served primarly Grundy County, population 13 800 , which is
contiguous to Franklin County. Once a prosperous coal mining area , Grundy County was
economically depressed and its residents were predominantly low income , elderly.

Before the merger, Methodist Hospital of Middle Tennessee s occupancy rate was 52 percent,
with an average daily census of 54. Emerald- Hodgson Hospital had an occupancy rate of 23
percent , with an average daily census of 10. Both facilities served Medicare and Medicaid
patients. The mix of services offered at both hospitals was vinually the same , including a
computed tomographic (CT) scanner, obstetrical services, and a complete emergency department.

After the merger, which occurred on October 26 1987, Emerald- Hodgson Hospital still belonged
to the University of the South and was leased to and managed by Methodist Health Systems , Inc.
The Methodist Hospital of Middle Tennessee facility in Winchester was thereafter regarded as
the full-service general acute care facility, and Emerald- Hodgson Hospital its satellite. The
merged hospitals are run by a board of directors which is comprised of lay people , medical staff
and administrative staff.


WHAT WERE THE PROBLEMS AND WHY DID THEY MERGE?

The primary reason for the merger was the imminent ban.ptcy of the company which was
leasing Emerald- Hodgson Hospital prior to the 1987 merger, Erlanger Health Systems , Inc.
  Erlanger ). As a result of Erlanger s serious financial problems, rumors were rampant
throughout the area that Emerald- Hodgson Hospital was going to close. Some respondents felt
that the quality of care at Emerald- Hodgson Hospital had declined. Emerald- Hodgson Hospital
was losing medical staff and money and had an extremely low census. The morale of the
non-medical staff was low, and the community was losing confidence in the institution. The
University of the South sought another health care organization to take over the management
function. Methodist Health Systems, Inc. responded.



WAS THE MERGER CHALLENGED?

There was a great deal of anxiety on the pan of the employees regarding the security of jobs and
benefits. The community was quite skeptical that the merger could save Emerald- Hodgson
Hospital from closing. However, no obstacles were presented to the merger. No antitrust
enforcement agency challenged the merger.


DID THE MERGER AFFECT THE AVAILABILITY OF HOSPITAL SERVICES?

The availability of services actually improved , primarly for elderly, low income residents of
Grundy County. Although cenain services were deleted from the Emerald- Hodgson facility, it
and the facility in Winchester are both more accessible to the residents of Grundy County via a
free transportation system. A toll- free telephone line was installed in Grundy County for
residents to request the van service.

The services which the Emerald- Hodgson facility lost are stil available at the facility in
Winchester. Those services include outpatient surgery, an intensive care unit , obstetrics (binhing
room , labor room , delivery, recovery room), and a computed tomographic (CT) scanner.
Patients at the Emerald-Hodgson site who need any of these services may be transponed to the
facility in Winchester by the free van service.

Methodist Hospital of Middle Tennessee added a myriad of outpatient and inpatient services and
programs, and an outpatient and inpatient alcohol/chemical dependency unit and services. A
helipad was built at the Emerald-Hodgson site for receiving emergency cases , and skiled
nursing and long- term care were added.
                      AGENCY COMMENTS

The draft repon entitled " The Effects of Hospital Mergers on Access to Care " was submitted for
comment to the appropriate Operating Divisions within HHS and the Secretar s Task Force on
Hospital Merger. We received written comments on the draft report from the Assistant Secretary
for Planning and Evaluation and verbal comments from members of the Secretary s Task Force
on Hospital Merger. Both remarked that the focus of the study is availability of services , not the
broader and more complex issue of access to care. We agree. An analysis of the many issues
relating to access to care is beyond the scope of this study. We, therefore , changed the name of
the repon to reflect more clearly its narower focus.
                            ENDNOTES

Edward A. Grant , CPA and Edward J. Giniat, CPA. " Evaluating Mergers and Acquisitions
with a Purchase Investigation. Healthcare Financial Management. 
 April 1988.


For an overview of concerns in the hospital industr see Marbeth Burke. " Mixed Signals
from Government Have Chiling Effect on Mergers. Hospitals.       June 5, 1990. See also
 HHS Neutral on Hospital Antitrust?"  Health Policy Week.   February 12 , 1990 and Tinker
Ready. " Court Axes Merger of Two Non- Profits. HealthWeek.     March 6, 1989.

Merit C. Kimball. " Wil HHS Advise Justice, FTC on   Hospital Antitrust?"   HealthWeek.
February 26 , 1990.
